Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 19-1476
CHRISTOPHER R. GISH,
Petitioner-Appellant,
v.
RANDALL HEPP, Warden,
Respondent-Appellee.
____________________
Appeal from the United States District Court for the
Western District of Wisconsin.
No. 3:15-cv-730 — James D. Peterson, Chief Judge.

____________________
ARGUED NOVEMBER 7, 2019 — DECIDED APRIL 3, 2020
____________________
Before HAMILTON, SCUDDER, and ST. EVE, Circuit Judges.
SCUDDER, Circuit Judge. Christopher Gish pleaded guilty to
ﬁrst-degree reckless homicide in Wisconsin state court for
killing his longtime girlfriend and the mother of his children.
He appealed, claiming that his trial counsel provided ineﬀective assistance by failing to investigate an involuntary intoxication defense. Police found Gish disoriented and delirious
on the night of the killing, and he claimed that rare side eﬀects
from taking prescription Xanax aﬀected his ability to

1a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

appreciate the wrongfulness of his conduct. After the Wisconsin Court of Appeals rejected the claim and aﬃrmed his conviction, Gish turned to federal court and wound his way
through a thicket of habeas proceedings. The district court
held an evidentiary hearing but denied relief because Gish
failed to show that his counsel’s deﬁcient performance resulted in prejudice: even if counsel had investigated involuntary intoxication, that defense was so unlikely to succeed that
Gish still would have pleaded guilty. We aﬃrm.
I
A
Early in the morning on July 14, 2012, Wisconsin police
found Christopher Gish soaking wet, unable to answer questions, and wandering in an unsteady manner on railroad
tracks near the Milwaukee airport. The oﬃcers took Gish to
the hospital, where he told paramedics that he had blacked
out. He then proceeded to make a series of nonsensical statements suggesting that he did not understand his whereabouts. At one point, for instance, Gish stated that “all I saw
was red” and “you are in my bedroom, why are you in my
room?” Upon ascertaining Gish’s home address, the police
entered and found his longtime girlfriend and the mother of
his children, Margaret Litwicki, stabbed to death in a bedroom.
Once Gish’s condition stabilized, he agreed to an interview with the police. A videotape showed that Gish gained
lucidity over the course of the questioning. Initially Gish denied any memory of the previous night, but later in the interview he confessed to stabbing Litwicki multiple times in his
bedroom. He said he attacked Litwicki because he suspected

2a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

that she was having an aﬀair and believed she might take his
kids from him.
Wisconsin authorities charged Gish with ﬁrst-degree intentional homicide, which carries a mandatory sentence of life
imprisonment. See WIS. STAT. §§ 939.50(3)(a), 940.01(1)(a). Nathan Opland-Dobs served as Gish’s court-appointed counsel.
Gish told Opland-Dobs that he had taken prescription Lamictal and Xanax before the homicide and thought those medications may have induced his erratic behavior in a way that
would aﬀord some legal defense to the charge.
Opland-Dobs researched the eﬀects of Lamictal, but not
Xanax—a choice he later said he could not explain. He ultimately determined that any Lamictal-based defense would be
futile and so advised Gish. When prosecutors later oﬀered to
accept a plea to ﬁrst-degree reckless homicide, which carries
a maximum sentence of 60 years, see WIS. STAT.
§§ 939.50(3)(b), 940.02(1), Opland-Dobs advised Gish to take
it. Gish agreed, pleaded guilty, and received a sentence of 40
years’ imprisonment and 20 years’ extended supervision.
B
With the assistance of new counsel, Gish ﬁled a direct appeal in Wisconsin state court. Counsel then ﬁled what Wisconsin law calls a “no-merit report”—the functional equivalent of an Anders brief in federal criminal practice—representing that any appeal would be meritless and requesting permission to withdraw as Gish’s appointed lawyer. See WIS.
STAT. § 809.32 (setting out Wisconsin’s procedure for ﬁling nomerit reports); accord Anders v. California, 386 U.S. 738, 744
(1967) (advising that “if counsel ﬁnds his case to be wholly

3a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

frivolous, after a conscientious examination of it, he should so
advise the court and request permission to withdraw”).
Gish responded to the no-merit report by insisting that he
had a non-frivolous basis for appeal. He claimed that his trial
counsel, Opland-Dobs, provided ineﬀective assistance by failing to pursue the aﬃrmative defense of involuntary intoxication, a complete defense to homicide under Wisconsin law.
Gish emphasized that he told Opland-Dobs all about the
Xanax he had taken before the homicide and suggested that
the medication may have aﬀected his ability to discern right
from wrong. See WIS. STAT. § 939.42(1). He supported this contention with police reports describing his delirium shortly after the homicide, medical records showing he had been prescribed Xanax, and information about Xanax’s side eﬀects
that he had found online and in textbooks. Gish then went a
step further: he insisted that, had he known an involuntary
intoxication was viable, he would have rejected the government’s plea and instead gone to trial.
Appellate counsel responded by emphasizing that Gish
never once suggested to his trial counsel, Opland-Dobs, that
either the Xanax or Lamictal so aﬀected his mental state as to
prevent him from understanding the wrongfulness of his conduct. So, appellate counsel put it, “there wasn’t anything to
investigate.”
The Wisconsin Court of Appeals evaluated Gish’s ineﬀective assistance claim under the familiar standards of Strickland
v. Washington, 466 U.S. 668 (1984). Gish had to show that Opland-Dobs’s performance “fell below an objective standard of
reasonableness,” id. at 688, and resulted in prejudice, meaning
that there was “a reasonable probability that, but for counsel’s

4a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

unprofessional errors, the result of the proceeding would
have been diﬀerent,” id. at 694.
The Wisconsin court denied relief, concluding that any
contention of ineﬀective assistance was so lacking—having no
“arguable merit”—that Gish could not even clear Strickland’s
ﬁrst hurdle of showing that Opland-Dobs’s performance was
deﬁcient. Indeed, the court wholesale adopted Gish’s appellate counsel’s version of events, disregarding Gish’s allegations in their entirety and even refusing to consider the police
reports and other documents Gish submitted in support of his
ineﬀective assistance claim. In eﬀect, then, the Wisconsin
court aﬃrmed Gish’s conviction for the same reason suggested by his appellate counsel—“there wasn’t anything to investigate.”
The Wisconsin Supreme Court denied review, and Gish
then turned his attention to securing relief in federal court.
II
A
Invoking 28 U.S.C. § 2254, Gish petitioned the district
court for federal habeas relief, renewing his claim that Opland-Dobs provided ineﬀective assistance of counsel by failing to investigate a Xanax-based involuntary intoxication defense. To secure relief, Gish had to establish that the Wisconsin Court of Appeals’s decision “was contrary to, or involved
an unreasonable application of, clearly established Federal
law,” or “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1)–(2).
Although ultimately denying relief, the district court did
so only after holding an evidentiary hearing, taking

5a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

testimony, and receiving other evidence on the merits of
Gish’s contention that Opland-Dobs should have pursued an
involuntary intoxication defense. The district court determined the evidentiary hearing was warranted, and indeed
necessary, because Gish, despite oﬀering his prescription records, the police reports, and information about the side eﬀects
of Xanax, never had a reasonable opportunity to develop the
factual basis for his claim on direct appeal in the state court.
Even more, the district court found that Gish’s allegations, if
true, supported his claim that Opland-Dobs performed deﬁciently. The state court’s back-of-the-hand rejection of Gish’s
ineﬀective assistance claim, the district court concluded, reﬂected an unreasonable application of Strickland, for Gish had
brought forth enough evidence on direct appeal to reasonably
question the adequacy of Opland-Dobs’s representation in
the trial court.
B
Several witnesses testiﬁed at the evidentiary hearing. Gish
testiﬁed on his own behalf and called pharmacology consultant James T. O’Donnell and his trial counsel Nathan OplandDobs. For its part, the state called Kayla Neuman, a chemist
in the toxicology section of the Wisconsin State Laboratory of
Hygiene, and Detective Brent Hart, who had interviewed
Gish the morning he was apprehended.
The district court heard conﬂicting evidence about
whether Gish took Xanax on the day he killed Litwicki. On
the one hand, Gish testiﬁed that he told Opland-Dobs he had
taken both Xanax and Lamictal on the day of the homicide.
But Gish plainly stated in the interview with Detective Hart
the morning of the homicide that he had last taken Xanax “[a]
couple days” before, which, given the half-life of Xanax,

6a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

would suggest that its eﬀects had worn oﬀ by the time of the
killing. In much the same vein, a nurse who treated Gish at
the hospital wrote in his patient visit records that Gish reported having sold his Xanax and Lamictal pills—suggesting
that perhaps he had never taken them at all in the days before
the homicide. And the district judge heard testimony that the
police found no Xanax in a search of Gish’s home.
The district court also heard expert testimony about the
possible eﬀects of Xanax. Both parties’ experts agreed that
Xanax can trigger hallucinations, agitation, rage, and hostile
behavior. The state’s expert, Neuman, added that mixing
Xanax with Lamictal can amplify these eﬀects. Gish’s expert,
O’Donnell, testiﬁed that the police ﬁnding Gish in a temporary delusional state was more consistent with Xanax intoxication than with the eﬀects of mental illness. O’Donnell added
that Gish could not appreciate the criminality of his conduct,
but the district court found that conclusion speculative,
backed by no medical evidence, and therefore not credible.
Finally, the district court heard from Gish and OplandDobs regarding their plea discussions. For the most part, their
accounts aligned: Gish testiﬁed that he had asked OplandDobs to consider defenses based on Xanax and Lamictal. Opland-Dobs did not dispute that aspect of Gish’s testimony, admitted that he failed to investigate Xanax, and expressed regret for that failure. He conceded that, given the evidence he
had available to him in representing Gish, investigating
Xanax would have been “appropriate” and he “didn’t give it
enough consideration.” Opland-Dobs oﬀered no justiﬁcation
for this failure, saying, “[w]hy I didn’t follow up on the
Xanax, I can’t explain,” because ignoring that path “doesn’t
seem like what I should have done.”

7a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

On the question of prejudice, Gish testiﬁed that he only
pleaded guilty on the assumption that he would have had a
“zero percent chance” of being acquitted at trial. He explained
that there was “no sense” in “putting the family through” a
trial “that was just a wish-wash,” where he believed he had
no chance of prevailing. But Gish was equally clear that his
decision may have been diﬀerent had Opland-Dobs pursued
the involuntary intoxication defense and told him it had some
chance of prevailing. Even if that defense were a weak one,
giving him as low as a “one-percent chance” of acquittal, Gish
insisted he would have “always take[n] the chance” and
rolled the dice at trial.
C
Aided by the evidentiary hearing, the district court proceeded to the merits of Gish’s ineﬀective assistance claim. The
court made quick work of Strickland’s deﬁcient performance
prong by assuming that Opland-Dobs’s complete and admitted failure to evaluate a Xanax-based intoxication defense was
unreasonable. Moving to Strickland’s prejudice prong, the
court concluded that Gish fell short of showing he would
have forgone the plea deal and gone to trial had Opland-Dobs
pursued the defense. While Gish so testiﬁed, the district court
was not willing to credit that testimony over other evidence
pointing in the opposite direction.
The district court placed particular emphasis on Gish’s
statements to Detective Hart not only that he had last taken
Xanax “[a] couple days” before the homicide, but also that he
did not regret killing Litwicki in light of her alleged inﬁdelity.
The district judge likewise highlighted Gish’s statement to the
nurse that he had sold his prescriptions—a fact corroborated
by the police’s failure to ﬁnd any trace of Xanax in Gish’s

8a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

home. Considering this evidence in its totality, the district
court determined that Gish had no reasonable prospect at trial
of demonstrating the essential element of the intoxication defense—that he failed to appreciate right from wrong at the
time of the homicide. The district court also found that the
state’s plea oﬀer was reasonably attractive, as it guaranteed
Gish a maximum of 60 years rather than life imprisonment.
Gish now appeals.
III
A
We begin with the decision of the Wisconsin Court of Appeals, the last state court to consider (at least a portion of)
Gish’s ineﬀective assistance claim on the merits in a reasoned
opinion. See Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018). Gish
needs to show, as the district court recognized, that the Wisconsin court’s decision “was contrary to, or involved an unreasonable application of, clearly established Federal law,” or
“was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d)(1)–(2). In answering that question, we
must “train [our] attention on the particular reasons—both legal and factual—why state courts rejected [Gish’s] federal
claims.” Wilson, 138 S. Ct. at 1191–92. Where, as here, the state
court issued an explanatory opinion, we “review[] the speciﬁc
reasons given by the state court and defer[] to those reasons if
they are reasonable.” Id. at 1192.
The Wisconsin Court of Appeals rejected Gish’s ineﬀective
assistance claim on the ground that “there wasn’t anything
[for his trial counsel, Nathan Opland-Dobs] to investigate.”
With nothing to investigate, the reasoning ran, Opland-Dobs

9a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

could not have rendered ineﬀective assistance. It made no difference, the Wisconsin court added, that Gish sought on appeal to support his claim with police reports and other evidence showing that his prescription Xanax may have explained his delusional state at the time of the homicide. None
of that evidence was before the trial court and that is all that
mattered on the Wisconsin court’s reasoning.
The district court was right to call the Wisconsin court’s
decision an unreasonable application of Strickland’s deﬁcient
performance prong. Return to the state court’s insistence that
Gish’s claim lacked merit because (and only because) he never
put his evidence before the trial court. That reasoning fails to
meet the claim Gish raised on direct appeal—ineﬀective assistance of his trial counsel, Nathan Opland-Dobs. As the Wisconsin court would have it, Gish—while being advised by
Opland-Dobs—somehow and some way (and apparently on
his own) had to put before the trial court evidence to support
a claim that Opland-Dobs had violated the Sixth Amendment
by not pursuing an involuntary intoxication defense. Yet the
trial record lacked evidence of Gish’s ineﬀective assistance
claim precisely because, by the very terms of the claim, Opland-Dobs’s deﬁcient performance occurred during the trial
court proceedings. Gish, in short, necessarily needed to support his claim with evidence outside the trial record, for there
was no other way he could have demonstrated his ineﬀective
assistance claim or rebutted his appellate counsel’s view (as
reﬂected in the no-merit report) that the claim was frivolous.
This is not the ﬁrst time we have found fault with the exact
reasoning the Wisconsin Court of Appeals employed in rejecting Gish’s ineﬀective assistance claim. In Davis v. Lambert, we
explained that “it would defy logic to deny [a state habeas

10a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

petitioner] an evidentiary hearing on whether his counsel’s
failure to investigate the witnesses violated Strickland on the
ground that he did not fully present those witnesses’ testimony to the state courts.” 388 F.3d 1052, 1061 (7th Cir. 2004).
Similarly, in Mosley v. Atchison, we concluded that a state
court unreasonably applied Strickland’s performance prong
by disregarding a defendant’s showing on appeal that his trial
counsel failed to pursue two potential alibi witnesses and instead assuming that counsel’s choice reﬂected a strategic determination. 689 F.3d 838, 848 (7th Cir. 2012).
We chart the same course here and have little diﬃculty
concluding that the Wisconsin Court of Appeals’s denial of
Gish’s ineﬀective assistance claim rooted itself in an “unreasonable application” of Strickland’s deﬁcient performance
prong as well as an “unreasonable determination of the facts
in light of the evidence [Gish] presented in the State court proceeding.” 28 U.S.C. § 2254(d)(1)–(2). Gish brought forth speciﬁc evidence that, if accepted as true, would have demonstrated that Opland-Dobs rendered deﬁcient performance in
failing to pursue a potential involuntary intoxication defense.
See Jones v. Wallace, 525 F.3d 500, 503 (7th Cir. 2008) (noting
that where a petitioner in state custody is “not at fault for failing to develop the factual record” of his ineﬀective assistance
claim, we “look only to whether, if proven, his proposed facts
would entitle him to relief”). The Wisconsin Court of Appeals’s contrary conclusion reﬂected an unreasonable application of Strickland. In these circumstances, the same error satisﬁes § 2254(d)(2), for the Wisconsin court’s categorical disregard of Gish’s evidence resulted in a rejection of his ineﬀective assistance claim on an unreasonable view of the facts. At
the very least, all of this was enough, as the district court recognized, to warrant an evidentiary hearing—to aﬀord Gish an

11a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

opportunity to develop the merits of his claim, an opportunity
he never received in state court. Like the district court, then,
we proceed to the merits of Gish’s ineﬀective assistance claim.
B
In considering Gish’s claim, we need say very little on
Strickland’s ﬁrst prong. Opland-Dobs testiﬁed in the district
court and admitted in no uncertain terms that he never assessed a Xanax-based involuntary intoxication defense. We
can assume this admitted failure is enough for Gish to show
deﬁcient performance. See Pole v. Randolph, 570 F.3d 922, 943
(7th Cir. 2009) (opting to “assume that counsel’s performance
was deﬁcient and move on to the second part of the analysis”
because the petitioner could not show prejudice).
This brings us to the primary issue on appeal: whether Opland-Dobs’s failure to pursue an involuntary intoxication defense prejudiced Gish. Our review proceeds de novo (and not
under the deferential standard of § 2254(d)) because this dimension of Gish’s claim is one the Wisconsin Court of Appeals never reached and considered. That court stopped at
Strickland’s ﬁrst prong. In these circumstances, the Supreme
Court has instructed, we treat the two prongs of Strickland as
divisible and review the prejudice prong by taking our own
fresh look at the evidentiary record developed in the district
court. See Rompilla v. Beard, 545 U.S. 374, 390 (2005) (reviewing
Strickland prejudice de novo because the state court did not
reach that issue); see also Thomas v. Clements, 789 F.3d 760,
766–67 (7th Cir. 2015) (collecting cases adhering to this same
approach).
The controlling substantive standard comes from Hill v.
Lockhart, 474 U.S. 52 (1985). The Court decided Hill one year

12a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

after Strickland and did so to articulate what a defendant must
show to establish that his trial counsel rendered ineﬀective assistance in advising him to plead guilty. First, and in full
alignment with Strickland, the defendant must show that his
counsel’s performance fell below an objective standard of reasonableness. See id. at 58. Second, when it comes to prejudice,
“the defendant must show that there is a reasonable probability that, but for counsel’s errors, he would not have pleaded
guilty and would have insisted on going to trial.” Id. at 59. The
Court went further and addressed how the inquiry changes
where, as here, counsel allegedly failed to advise his client of
an aﬃrmative defense. See id. at 59–60. In those circumstances, the Court explained, “the resolution of the ‘prejudice’
inquiry will depend largely on whether the aﬃrmative defense likely would have succeeded at trial.” Id. at 59.
The standards announced in Hill map directly onto Gish’s
claim and put him under an obligation to make a twofold
showing. First, Gish had to show that Opland-Dobs performed deﬁciently in failing to investigate the Xanax-based
defense. Second, Gish had to demonstrate that there existed a
reasonable probability that, had his counsel investigated the
defense, he would have rejected the plea oﬀer and proceeded
to trial with a likelihood of succeeding on the defense. See id.
at 59.
Gish urges a slightly diﬀerent standard—one informed
not only by Hill but even more by the Supreme Court’s decision in Lee v. United States, 137 S. Ct. 1958 (2017). Like Gish,
Jae Lee pleaded guilty after his trial counsel advised him that
going to trial would be risky, and following a conviction, result in more jail time. See id. at 1963. But Lee had a consideration other than prison top of mind. He told his attorney he

13a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

was a noncitizen and “repeatedly asked him whether he
would face deportation as a result of the criminal proceedings.” Id. Lee’s attorney reassured him that a guilty plea
would not result in deportation. Lee relied on and followed
the advice even though it was wrong. By pleading guilty to
an aggravated felony, Lee faced mandatory deportation under the Immigration and Nationality Act—the precise outcome he wanted to avoid. See id. (citing 8 U.S.C.
§§ 1101(a)(43)(B), 1227(a)(2)(A)(iii)). Lee later pursued federal
habeas relief, arguing that his attorney had rendered ineﬀective assistance of counsel that resulted in severe prejudice. See
id.
The Supreme Court agreed. Usually a defendant “without
any viable defense will be highly likely to lose at trial,” and
when “facing such long odds will rarely be able to show prejudice from accepting a guilty plea that oﬀers him a better resolution than would be likely after trial.” Id. at 1966. For Lee,
however, “avoiding deportation was the determinative factor”—the variable of “paramount importance”—in deciding
whether to plead guilty or go to trial, while the time he spent
in prison was relatively inconsequential to his litigation strategy. Id. at 1967–69. Lee’s counsel eliminated any doubt on the
point, testifying that Lee would have gone to trial had he been
properly informed that deportation would follow as automatic consequence of pleading guilty. See id. at 1967–68.
All of this led the Court to conclude that Lee “would have
rejected any plea leading to deportation—even if it shaved oﬀ
prison time—in favor of throwing a ‘Hail Mary’ at trial.” Id.
at 1967. Lee’s laser focus on averting deportation, the Court
underscored, showed that his counsel’s errors prejudiced
him. Id. at 1967–68.

14a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

Gish labors to situate himself like Lee. He does so mindful
of Hill, but of the view that Lee modiﬁes the prejudice question. In Gish’s view, Lee teaches that he could show prejudice
by now contending in federal habeas that he would have gone
to trial on a Xanax-based defense even if that defense had only
one percent chance of success.
We disagree and see Lee as reinforcing, not transforming,
Hill. In Lee the Court took care to observe that defendants
without a viable defense would “rarely” be able to show prejudice from a guilty plea that reduces their sentencing exposure. See id. at 1966. Put most simply, the certainty of less jail
time creates an incentive to avoid the longer shot of an acquittal at trial. See id. Lee was a rare exception: from Jae Lee’s perspective, the consequences of pleading guilty and going to
trial were “similarly dire”—he would be deported either
way—so he was willing to bet on “even the smallest chance of
success at trial.” Id. at 1966–67. Properly informed, Lee would
have found nothing attractive about a plea oﬀer that reduced
his prison time (a relatively minor concern for him) but guaranteed his deportation—the outcome he most wanted to
avoid.
Gish’s case is much diﬀerent. The district court found that,
unlike Jae Lee, Christopher Gish decided to plead guilty
“based primarily on the prospects of success at trial.” Gish all
but said so himself, testifying in the district court that he
pleaded guilty because Opland-Dobs informed him that he
had no chance of winning at trial. The district court further
found that, in contrast with Lee’s persistent concern about deportation, nothing in Gish’s communications with OplandDobs indicated that some factor other than the prospect of
success would have motivated Gish to go to trial.

15a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

Unlike Lee, then, Gish wanted to consider an involuntary
intoxication defense because he thought it might provide a
basis to defeat the homicide charge. What is more, Gish, unlike Lee, said not a word—neither to his trial counsel nor to
the district court—suggesting that he was willing to forgo a
meaningful reduction in his sentencing exposure (from mandatory life imprisonment to a maximum of 60 years) to avoid
collateral consequences. Put another way, the record shows
that Gish thought about whether to plead guilty or to go to
trial in just the way the Supreme Court in Lee described as
paradigmatic for most defendants—by comparing the probability of success at trial with the value of a reduced sentence
from pleading guilty.
On the record before us, then, we decline Gish’s invitation
to deviate from the prejudice inquiry the Supreme Court articulated in Hill. The proper question therefore is whether
there was a reasonable probability that Gish would have gone
to trial on his aﬃrmative defense, with the answer “depend[ing] largely on whether the aﬃrmative defense likely
would have succeeded at trial.” Hill, 474 U.S. at 59.
C
In the end, we agree with the district court that Gish’s
Xanax-based involuntary intoxication defense had no reasonable prospect of success at trial. Even assuming he could marshal the evidence required to get a jury instruction on the defense, we see no likelihood the defense would have persuaded
a jury that Xanax rendered him unable to appreciate the difference between right and wrong at the time he stabbed Litwicki to death. Our conﬁdence in this conclusion emerges
from the detailed facts the jury would have learned:

16a

Case: 19-1476

Document: 27

Filed: 04/03/2020

•

Gish told a hospital nurse that he sold his pills
and no longer had any.

•

Gish told Detective Hart that he last took Xanax
“[a] couple days” before the homicide.

•

The police who searched Gish’s home found no
trace of Xanax.

•

Even if Gish had taken Xanax the day of the
homicide, it was unlikely that he was the rare
patient who would have experienced eﬀects so
extreme as to prevent him from appreciating
the wrongfulness of his conduct. The district
court found that the little evidence Gish oﬀered
on that front (from his expert witness, James
O’Donnell) lacked credibility.

•

In his interview with Detective Hart, Gish confessed to how he went about killing and abusing Litwicki—statements revealing an awareness of his own conduct.

•

Gish also oﬀered a clear motive for the crime—
that he suspected Litwicki was cheating on him
and would take his kids away.

Pages: 18

The combined weight of these facts would have left Gish
with no likely prospect of prevailing on an involuntary intoxication defense and defeating the state’s robust case against
him. By extension, then, and especially given Gish’s focus on
oﬀering a defense with a chance of succeeding, we have diﬃculty believing that Gish would have proceeded to trial and
run the substantial risk of being convicted and receiving a
mandatory sentence of life in prison. See Padilla v. Kentucky,
559 U.S. 356, 372 (2010) (emphasizing that a petitioner

17a

Case: 19-1476

Document: 27

Filed: 04/03/2020

Pages: 18

challenging a guilty plea must show “that a decision to reject
the plea bargain would have been rational under the circumstances”); see also Woolley v. Rednour, 702 F.3d 411, 429 (7th
Cir. 2012) (rejecting prejudice where the defendant had made
the bare and unpersuasive allegation that wrongfully excluded witness testimony could have led to acquittal).
Because Gish cannot show prejudice from his trial counsel’s errors, we agree with the district court that he is not entitled to habeas relief on his ineﬀective assistance claim. We
therefore AFFIRM.

18a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 1 of 19

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN

CHRISTOPHER RANDOLPH GISH,
Petitioner,

OPINION and ORDER

v.

15-cv-730-jdp

MICHAEL DITTMANN,
Respondent.

Petitioner Christopher Randolph Gish pleaded guilty to first-degree reckless homicide
in Milwaukee County Case No. 12-CF-3564, but he seeks a writ of habeas corpus under 28
U.S.C. § 2254 so that he can withdraw his plea. Although he admits that he committed the
crime, he contends that his trial counsel was ineffective because counsel failed to investigate
and inform Gish of a potential defense of involuntary intoxication. If Gish had known about
that defense, he says, he wouldn’t have accepted the state’s plea deal and would have instead
gone to trial, where he would try to show that he killed his girlfriend as a result of side effects
from Xanax that he was taking under a doctor’s prescription.
In an earlier order, I held that the Wisconsin Court of Appeals unreasonably applied
federal law regarding ineffective assistance of counsel. Dkt. 22. I concluded that Gish should
have had a hearing at which he could present evidence that his trial counsel was ineffective.
On July 27, 2018, I held that hearing. The parties have submitted post-trial briefs and the
matter is now ready for a decision.
To show that his trial counsel was ineffective, Gish must show both that counsel’s
performance was deficient, and that Gish was prejudiced by the deficiency. Strickland v.
Washington, 466 U.S. 668 (1984). I will assume that counsel performed deficiently by failing

19a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 2 of 19

to inform Gish of a potential defense of involuntary intoxication, but I will deny the petition
because I conclude that Gish has not shown prejudice. Had trial counsel advised Gish about a
possible involuntary intoxication defense, that advice would have to include an assessment of
the prospects of success, which are essentially nil. Gish has some evidence that his conduct the
night of the killing might have been influenced by the Xanax he was prescribed, but he has no
evidence that he could not tell right from wrong, which is what he would have to prove for an
involuntary intoxication defense. Under these circumstances, Gish hasn’t shown that there is
a reasonable probability that, had his trial counsel informed him of the defense, he would have
decided not to plead guilty.
BACKGROUND
In the early morning of July 14, 2012, sheriff deputies found Christopher Gish
wandering shoeless and incoherent near General Mitchell Airport south of Milwaukee, after he
had crashed the minivan owned by his girlfriend, Margaret Litwicki. Gish was taken to a nearby
hospital. Because Gish made statements about “blacking out and seeing red,” the investigating
officers called for a wellness check at the Greenfield address where the van was registered. Ex.
5, at 4. (Exhibits cited in this opinion are at Dkt. 41.) Police found Litwicki dead in the
bedroom she shared with Gish. She had been stabbed repeatedly in the head, neck, and chest.
After Gish was released from the hospital, he was taken to the Greenfield Police Department,
where he was interviewed by detective Brent Hart. Gish at first denied any recollection of the
crime, but ultimately he admitted to stabbing Litwicki because he believed she was having an
affair and had threatened to leave him and take their children with her.
Gish was charged with first-degree intentional homicide in Milwaukee County Case No.
12-CF-3564. The charge carries a mandatory life sentence. Nathan Opland-Dobs, a lawyer

20a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 3 of 19

from the office of the State Public Defender, was appointed to represent him. On November
19, 2012, Gish pleaded guilty to first-degree reckless homicide, which carries a maximum
prison term of 60 years but no mandatory minimum sentence. Wis. Stat. §§ 939.50(3)(b) and
940.02(1). The plea agreement allowed the parties to argue for whatever sentence they thought
appropriate. The circuit court sentenced Gish to 40 years’ confinement to be followed by 20
years’ extended supervision.
Gish had wanted Opland-Dobs to raise Gish’s use of Xanax as a defense, and shortly
after sentencing he claimed that Opland-Dobs was ineffective because he did not do so. The
procedural background of Gish’s post-conviction proceedings is set out in my earlier order,
Dkt. 22, so I won’t repeat it here. The important point is that I concluded that Gish was
entitled to a hearing where he would have the opportunity to present evidence that
Opland-Dobs had been ineffective.
At the hearing in this court, Gish presented the testimony of three witnesses:
pharmacology consultant James T. O’Donnell; Opland-Dobs; and Gish himself. The
respondent presented the testimony of two witnesses: Kayla Neuman, a senior chemist in the
toxicology section of the Wisconsin State Laboratory of Hygiene; and detective Hart. The
parties stipulated to the admission of exhibits. All at Dkt. 41. From this evidence, I find the
following facts.
On July 9, 2012, after a very brief consultation with his son’s psychiatrist, Gish was
prescribed three psychoactive medications, none of which he had taken before: Xanax,
Lamictal, and Prestiq. Ex. 3 (pharmacy records). He went to fill the prescriptions the same day.
The pharmacy was out of Prestiq, but he filled the prescriptions for Lamictal and Xanax, the
latter of which Gish was prescribed to take three times a day. He took the Lamictal as

21a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 4 of 19

prescribed, but there is conflicting evidence about whether he took the Xanax on the day of
the killing. At the hospital, he told a nurse that he had been prescribed Xanax, Lamictal, and
Prestiq, but that he had “sold them for money.” Ex. 16, at 10. During his interview with
detective Hart, Gish said that he had taken the Lamictal “today sometime,” but that he had
last taken Xanax “a couple of days ago.” Ex. 18, at 4. He also said that he “sold them”
immediately after referring to his Xanax prescription and that he and his girlfriend “sell our
pills to make money for rent.” Id. at 4, 8.
No Xanax pills or bottles were found at the Gish/Litwicki residence, although police
found bottles for four other prescriptions for Gish, including Lamictal. After he was charged,
Gish told Opland-Dobs that he had taken both Xanax and Lamictal on the day of the killing.
Gish testified at the hearing in this court that he had taken the Xanax as prescribed, and he
could not explain why he told Hart anything different. When asked at the hearing why police
didn’t find Xanax at his residence, Gish said, “It should have been there.”
Gish’s blood was tested for the presence of alcohol, but no other drugs, and no alcohol
was detected. Gish’s testimony that he took no other drugs the day of the killing is unrebutted.
So I find that Gish had not taken any drugs other than those prescribed, but whether Gish
actually took Xanax the day of the killing is a disputed fact.
O’Donnell and Neuman (the two experts) agreed on the basic facts about Xanax, which
they derived primarily from a review of medical literature. I accept their qualifications to testify
about the reported effects of Xanax intoxication in the medical literature, but neither of them
is an expert on Xanax or Xanax intoxication. Xanax is a benzodiazepine-class drug used to treat
anxiety. A typical dose for anti-anxiety use for a first-time user would be .25 mg to .5 mg. Gish
was prescribed 1 mg, two to four times a normal dose. Xanax can cause intoxication, with

22a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 5 of 19

effects similar to alcohol intoxication, and therefore it is a common drug of abuse. The half-life
of Xanax is short, so its effects wear off in less than a day. Although Xanax is a central nervous
system depressant, it can also cause a “paradoxical effect” triggering behavioral disturbances,
including hallucinations, agitation, rage, and aggressive or hostile behavior. The paradoxical
reactions are not necessarily dose-dependent. Neither O’Donnell nor Neuman estimated how
common such paradoxical reactions were. Neuman also testified that interaction with Lamictal
can amplify the effects of Xanax, including the paradoxical effects.
O’Donnell and Neuman disagreed about whether Gish was suffering from the effects of
Xanax intoxication at the time of the killing. Neuman’s opinion was that there is not enough
information to determine whether Gish had taken Xanax the day of the killing. She also said
that amnesia “would not be a side effect of a therapeutic dose.” O’Donnell’s opinion is that
Gish was under the influence of Xanax, that it triggered a drug-induced psychosis, and that “he
would have been deprived of substantial capacity either to appreciate the criminality of his
conduct or to conform his conduct to the requirements of the law.” Ex. 1. I will credit
O’Donnell’s opinion this far: Gish was found in a confused, delusional state and he recovered
in a matter of hours, which O’Donnell says is more consistent with Xanax intoxication than
with an episode of psychosis induced by an underlying mental illness.
Opland-Dobs had about 11 years’ experience when he undertook Gish’s representation,
and by the time of the hearing he had handled 15-20 homicide cases. He testified that because
Gish had admitted the killing, the defense focused on sentencing mitigation. Nevertheless,
Opland-Dobs did consider the defense of adequate provocation, which if established would
result in a conviction for second-degree intentional homicide. Opland-Dobs also considered a

23a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 6 of 19

defense of not guilty by reason of insanity, but he concluded that he had no support for it. He
discussed both of these defenses with Gish.
Opland-Dobs also considered whether the medications Gish had taken would affect his
ability to control himself. Opland-Dobs was aware of the involuntary intoxication defense, but
he had never raised the defense before and was not aware of any colleagues who had either. He
made a formal request for research assistance on the effects of Lamictal, Ex. 10, and he inquired
with colleagues and a psychiatrist to find out if Lamictal might have side effects that
contributed to the crime. But Lamictal was a dead end. Ultimately, despite Gish’s requests that
Opland-Dobs consider some defense based on his medications, Opland-Dobs concluded that
Gish had no viable defense to the homicide charge. Opland-Dobs testified that he did not
consider whether Xanax might have adverse side effects, and he could not explain why he did
not investigate Xanax as he had Lamictal. Opland-Dobs’s practice is that he does not directly
recommend that a client accept a plea offer, but leaves the decision to the client. He believed
that the offer to Gish was reasonable under the circumstances, but not an especially good one.
Gish testified at the hearing that he had taken Xanax three times per day as prescribed
from July 9 through the day of the killing. He did not say at what time he took the last dose
before killing Litwicki. He also testified that he accepted the plea to first-degree reckless
homicide because he believed, based on Opland-Dobs’s advice, that he had no viable defense.
He testified that he was not a violent person and that he believed that he killed Litwicki because
of the medications he was taking. Had he known about the involuntary intoxication defense,
and the potential side effects of Xanax, he would have rejected the plea and gone to trial, even
if the chances of success with that defense were as low as one percent.

24a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 7 of 19

Brent Hart, the Greenfield detective who interviewed Gish, also testified. Video
recordings of his interviews are in the record as Exs. 17 and 19; transcripts are Exs. 18 and 20.
His hearing testimony established that no Xanax bottles or pills were found in the Gish/Litwicki
residence after the killing.

ANALYSIS
Gish’s claim of ineffective assistance of counsel is straightforward: Opland-Dobs should
have investigated the effects of Xanax and informed Gish of the involuntary intoxication
defense; had Opland-Dobs done so, Gish would have gone to trial. I evaluate Gish’s claim under
the familiar two-prong test in Strickland v. Washington, 466 U.S. 668 (1984), which requires
Gish to show both that Opland-Dobs’ performance was deficient and that Gish was prejudiced
by the deficiency. Respondent contends that Gish cannot make either showing. Both sides
assume that I will apply Strickland without deference to the state court because I concluded
that the state court unreasonably applied federal law by denying Gish’s request for a hearing.
Now that I have provided that hearing, I will consider whether Gish has satisfied both of
Strickland’s requirements.
A. Motions in limine
Before considering the merits, I must address two pending motions in limine, Dkt. 30
and Dkt. 31, but neither require extended discussion. First, Gish asks the court to consider
O’Donnell’s testimony about Gish’s mental state, which Gish says would be permitted in state
court. Wis. Stat. § 907.04 (“Testimony in the form of an opinion or inference otherwise
admissible is not objectionable because it embraces an ultimate issue to be decided by the trier
of fact.”). I will assume that an expert could testify about Gish’s mental state, but I will deny

25a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 8 of 19

the motion because I conclude that O’Donnell’s testimony on that issue is not adequately
supported as required under Wis. Stat. § 907.02, for the reasons explained below.
Second, Gish asks the court to “clarify his obligations regarding privileged
attorney-client materials.” Dkt. 31, at 1. I will deny this motion as moot. Gish has not claimed
as privileged any of the evidence on which I have relied in this opinion, and the respondent
has not asked for the disclosure of any other documents or communication between Gish and
Opland-Dobs. Gish has not asked the court to place any of the exhibits under seal. Gish has
waived his privilege for any communication with Opland-Dobs on the subject of his
mental-state defenses, and no further clarification is needed.
B. Involuntary intoxication defense
To provide needed context for the application of the Strickland test to this case, I begin
with an overview of the involuntary intoxication defense under Wisconsin law. At the time of
Litwicki’s killing, the defense was set out in Wis. Stat. § 939.42. (The statute has since been
amended, but it is substantively the same.) In pertinent part, the statute reads:
An intoxicated or a drugged condition of the actor is a defense
only if such condition . . . [i]s involuntarily produced and renders
the actor incapable of distinguishing between right and wrong in
regard to the alleged criminal act at the time the act is committed
....
The involuntary intoxication defense has two requirements: (1) the defendant’s intoxicated
condition was involuntarily produced, and (2) the intoxication rendered the defendant
incapable of distinguishing right from wrong. State v. Gardner, 230 Wis. 2d 32, 37, 601 N.W.2d
670 (Ct. App. 1999). Intoxication is involuntary if it is produced solely by medication taken
as prescribed; the defense is not available to one who mixes prescription drugs with alcohol or
other drugs. Id. at 40; State v. Anderson, 2014 WI 93, ¶ 33, 357 Wis. 2d 337, 851 N.W.2d 760.

26a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 9 of 19

A defendant is entitled to a jury instruction on the involuntary intoxication defense if
he proffers some credible evidence on both elements of the defense. Gardner, 230 Wis. 2d at
44-45, 601 N.W.2d at 676 (quoting State v. Strege, 116 Wis. 2d 477, 343 N.W.2d 100, 105
(1984)). If the defendant successfully raises the defense by adducing evidence on both
elements, “the burden is on the state to prove the absence of the defensive matter to support
a conviction for the crime charged.” Wis. Criminal Jury Instructions § 775A Comments n.3
(2015). (The current instruction tracks the non-substantive amendments to the statute.) If the
state does not meet its burden, “the result will be an acquittal on the charge.” Anderson, 2014
WI 93, ¶ 25 (quoting 9 Christine M. Wiseman & Michael Tobin, Wisconsin Practice Series:
Criminal Practice and Procedure § 17.25 (2d ed.)).
C. Strickland analysis
1. Deficient performance
Counsel provides deficient performance when he or she makes errors “so serious that
counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Id. at 687. Gish contends that Opland-Dobs performed deficiently in this case
by failing to investigate a potential defense of involuntary intoxication caused by taking Xanax.
Opland-Dobs testified, and as his contemporaneous notes show, that he specifically
considered whether Gish’s medications might have affected his mood and behavior. He
requested “research into Lamictal and adverse reactions involving violence or mood
disstability.” Ex. 10, at 4. He simply didn’t ask about Xanax, even though Gish had filled
prescriptions for both Lamictal and Xanax at the same time. Gish himself urged Opland-Dobs
to consider the effect of Xanax on his behavior; Gish even drafted part of an argument
highlighting his recent prescriptions for Xanax and Lamictal. Ex. 8, at 11.

27a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 10 of 19

Respondent offers a reason why it would have made sense for Opland-Dobs to decline
to pursue an involuntary intoxication defense: it would have failed. And the court of appeals
has held that counsel has no duty to pursue a defense that is “theoretically possible [but]
hopeless as a practical matter.” Evans v. Meyer, 742 F.2d 371, 374 (7th Cir. 1984). But
Opland-Dobs himself doesn’t contend that he rejected an involuntary intoxication defense for
strategic reasons based on his appraisal of the prospects of success. In this case, questions about
trial strategy overlap with the question of prejudice. So I will assume that Opland-Dobs
performed deficiently by failing to inform Gish of a possible involuntary intoxication defense
and turn to the question of whether that failure prejudiced Gish.
2.

Prejudice

A petitioner shows prejudice if “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Id. at 694. In
the context of a guilty plea, this means showing that there is a reasonable probability that, but
for counsel’s deficient performance, the defendant would not have pleaded guilty but would
have insisted on going to trial. Lafler v. Cooper, 566 U.S. 156, 163 (2012); Moore v. Bryant, 348
F.3d 238, 241 (7th Cir. 2003). In the context of this case, Gish must show that, had he been
properly advised about the involuntary intoxication defense, there is a reasonable probability
that he would have rejected a plea to first-degree reckless homicide and taken his chances at
trial on the first-degree homicide charge.
Gish testifies now that, had he known about the potential adverse effects of Xanax and
the involuntary intoxication defense, he would have gone to trial. But I must look beyond
Gish’s hearing testimony to see whether there is contemporaneous evidence to substantiate his
currently expressed preferences. Lee v. United States, 137 S. Ct. 1958, 1967 (2017).

28a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 11 of 19

One factor relevant to this analysis is the value of the plea deal. Pidgeon v. Smith, 785
F.3d 1165, 1173 (7th Cir. 2015) (“The terms of a plea deal are admittedly relevant in assessing
the credibility of a petitioner's claim that he would have gone to trial had he received correct
information at the plea bargaining stage.”). Gish questions the value of the deal because he was
sentenced to 40 years’ incarceration, so he will be 77 when is released. But the question is
whether Gish would have accepted the plea before he knew what his sentence would be. A
defendant’s dissatisfaction with the sentence imposed by the judge cannot satisfy the prejudice
prong of the Strickland analysis, for that would unreasonably undermine the finality of a guilty
plea, which the court is obliged to respect. Lee, 137 S. Ct. at 1967.
In this case, Gish was charged with a crime that carried a mandatory life sentence; he
pleaded guilty to a crime that carried maximum prison sentence of 60 years, but no mandatory
minimum sentence. So when Gish accepted the plea agreement, he gained the potential for a
significantly reduced sentence, unquestionably an attractive prospect compared to mandatory
life imprisonment. Opland-Dobs testified that the deal was “not a particularly good offer,” but
“[i]t was within reason.” Dkt. 42, at 80. And he didn’t say that Gish should have expected
better under the circumstances. So the plea deal Gish received may not show conclusively that
would have pleaded guilty even if he had known about an involuntary intoxication defense,
but neither does it show that he would have rejected the deal.
In most cases, the most important evidence regarding prejudice is the strength of the
defendant’s case were he to reject the plea and proceed to trial. Lee, 137 S. Ct. at 1966. “[T]hat
is not because the prejudice inquiry in this context looks to the probability of a conviction for
its own sake.” Id. Rather, it is because the court assumes that a defendant will act rationally
under the circumstances. Id. at 1968. And a rational defendant who has “no plausible chance”

29a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 12 of 19

of an acquittal at trial is “highly likely” to accept a plea if the government offers one. Id. So,
“[a]s a general matter, it makes sense that a defendant who has no realistic defense to a charge
supported by sufficient evidence will be unable to carry his burden of showing prejudice from
accepting a guilty plea.” Id. The Supreme Court has applied this logic to cases involving the
failure of counsel to advise the defendant of a potential affirmative defense. Hill v. Lockhart,
474 U.S. 52, 59–60 (1985) (in that situation, “the resolution of the ‘prejudice’ inquiry will
depend largely on whether the affirmative defense likely would have succeeded at trial”).
Lee recognizes that a defendant’s chance of success at trial is not always decisive. In that
case, the defendant had made it clear to his lawyer that deportation, not his chance of success
at trial, was the “determinative issue” for him, but counsel failed to inform him before accepting
a plea agreement that doing so would “would certainly lead to deportation.” Lee, 137 S. Ct. at
168. So even though the defendant did not have a viable defense, his chances of avoiding
deportation by going to trial were very low, but still better than if he pleaded guilty. Under
those “unusual circumstances,” the defendant could show a reasonable probability that he
would have rejected the plea had he known that it would lead to mandatory deportation. Id. at
1967.
The reasoning in Lee is not instructive in this case because I find that Gish’s original
decision whether to plead guilty was based primarily on the prospects of success at trial. As he
testified at the hearing, he chose to plead guilty because he was informed that he had essentially
no chance of success. He says now that if he had believed he had any chance of success, even
a remote one, he would have gone to trial. But nothing in his contemporaneous communication
with Opland-Dobs indicated that any factor other than success at trial—such as the deportation
at issue in Lee—would motivate him to go to trial despite overwhelmingly long odds. Although

30a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 13 of 19

Opland-Dobs informed Gish of other potential defenses such as adequate provocation and not
guilty by reason of insanity, Gish made the rational choice to accept a plea deal rather than
raise defenses that were doomed to fail. And Gish has not contradicted Opland-Dobs’s
testimony that Opland-Dobs did not make a plea recommendation to him, so Gish made the
ultimate decision on his own. It follows that Gish would have made the same decision if
Opland-Dobs had informed Gish about an involuntary intoxication defense but explained that
he had no realistic chance of succeeding on the defense.1
With that framing context, I turn now to the question whether Gish has shown that he
would have had any chance of succeeding on a defense of involuntary intoxication. Recall that
to get a jury instruction on involuntary intoxication Gish must adduce credible evidence that
(1) he was intoxicated by Xanax taken as prescribed, and (2) that as a result of the intoxication,
he could not tell right from wrong.
As for the first element, there is some credible evidence. Gish had a prescription for
Xanax and was directed to take a large dose for a first-time user. He told Opland-Dobs’s
research assistant soon after he was charged that he had in fact taken the Xanax as prescribed
through the day of the killing. He was in a confused and delusional state when he was picked
up about 5 a.m., but was lucid when he was turned over to police custody at 7:51 a.m.
I will assume that, had Opland-Dobs conducted his own investigation, he would have
uncovered the same information about Xanax that O’Donnell provided at the evidentiary

1

Gish also says now that he’d like the opportunity to clear his name with his children, in the
sense that he wants them to know that he did not intend to kill their mother. But his name
would not be cleared unless he were acquitted, so that is not really a consideration separate
from success at trial. In any event, Gish’s desire to clear his name would be the same regardless
whether he was raising an involuntary intoxication defense, so it does not provide support for
a belief that Gish would have rejected the plea deal had he known about the defense.

31a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 14 of 19

hearing. Specifically, Xanax can be intoxicating at the dose Gish was prescribed, and Gish’s
rapidly resolving delusional state after the killing is consistent with Xanax intoxication.
But a competent attorney advising his client would also consider all the weaknesses of
Gish’s proof on this element. Specifically, Gish told both a nurse and detective Hart that he
had not taken Xanax the day of the killing; he also told them that he and Litiwicki had sold
their pills for money to pay their rent. These statements are corroborated by the fact that the
police found no Xanax pills or bottles at the house, a fact that Gish could not explain at the
evidentiary hearing. (If he were taking the Xanax as prescribed, Gish should have had about
25 days, or 75 pills, left.) These clear weaknesses in a potential involuntary intoxication defense
would have been apparent to Opland-Dobs and would have informed any objective assessment
of Gish’s options. But I cannot say that the credibility problems on this element are so
pronounced as to utterly doom the defense.
Where Gish falters is the second element, which requires Gish to show that his
intoxication rendered him incapable of telling right from wrong. There is simply no evidence
to support that element of the defense.
A primary purpose of the evidentiary hearing was to give Gish the opportunity to show
that Opland-Dobs, had he conducted an adequate investigation, could have discovered
evidence suggesting both that Xanax has the potential to make someone incapable of
distinguishing right from wrong and that Xanax had that effect on Gish. But Gish failed to
show either of those things.
Both O’Donnell and Neuman testified that Xanax can lead to behavioral changes that
include increased hostility and aggression. But hostility and aggression are not the same as the
inability to tell right from wrong. See, e.g., State v. Eggenberger, 2013 WI App 128, ¶ 14, 351

32a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 15 of 19

Wis. 2d 224, 838 N.W.2d 866 (the side effects of Prozac, which include loss of judgment,
reduced inhibition, and dementia-like symptoms, did not affect ability to tell right from wrong,
and thus did not support involuntary intoxication defense).
O’Donnell took his opinion a step further, stating that Gish “would have been deprived
of substantial capacity either to appreciate the criminality of his conduct or to conform his
conduct to the requirements of the law.” Ex. 1, at 4. This is not necessarily the same thing as
being incapable of distinguishing right from wrong. But even if I set aside the difference
between O’Donnell’s opinion and the statutory standard, I do not credit the opinion because
it is completely unsupported. O’Donnell is pharmacist, and knowledgeable in general about
drugs and adverse effects. But he is not an expert on Xanax intoxication, so he lacks the
expertise to offer so specific an opinion about the effects of Xanax. I also find O’Donnell’s
opinion on this point to be conclusory and not adequately explained. He relied primarily on
medical literature, but he did not point to anything specific in the literature showing that Xanax
could have the effect he described. Competent, well-supported expert testimony might be
admissible to show that Gish could not tell right from wrong. Gardner, 230 Wis. 2d at 42, 601
N.W.2d at 675. But O’Donnell’s conclusory opinion on this point does not satisfy that
standard.
O’Donnell also testified that he thought that Gish could not tell right from wrong
because doctors at the hospital described him as “psychotic, and out of touch with reality, and
delusional.” Dkt. 42, at 53. And “[i]f a patient is psychotic, they’re not able to think, and act,
and conclude, and deliberate.” Id. at 54. Nurses at the hospital described Gish as confused and
delusional from about 6 a.m. to shortly after 7 a.m. But they do not describe him as
“psychotic.” In any event, neither O’Donnell nor Gish pointed to anything in the medical

33a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 16 of 19

records showing that Gish didn’t know the difference between right and wrong, either while he
was at the hospital or any time before that.
So Gish was unable to adduce any credible evidence at the hearing to support one of
the elements of his defense. In contrast, the respondent pointed to compelling evidence that
would defeat the defense: Gish’s interview with detective Hart. In that interview, Gish clearly
demonstrates the ability to think, conclude, and deliberate about the killing. It is true that, at
one point in his interview with Hart, Gish said “I don’t know. I couldn’t think. I lost my mind.
And I felt at the time that was the right thing to do.” Ex. 20, at 11. Taken out of context, this
statement might appear to support Gish’s claim. But a review of the whole interview makes it
clear that Gish knew what he was doing when he killed Litiwicki and he knew it was wrong at
the time. His statement that he thought it was “the right thing to do” is a reflection of Gish’s
belief that his actions were justified by Litiwicki’s alleged infidelity, not evidence that he was
unable to appreciate the criminality of his actions.
At the beginning of the interview, Gish states that he does not remember what
happened. (Again, neither expert testified that Gish’s alleged amnesia could have been caused
by a therapeutic dose of Xanax.) But at a certain point (at page 33 of Ex. 19), Gish says
“Remember bits and pieces the more that I think about it.” From that point on, he describes
the killing in detail and explains his reasons for doing it. He had long suspected that Litwicki
was having an affair with a young man whom they had taken in. He was angry because he
believed that Litwicki was sexually unfaithful and she was spending Gish’s money on the young
man. And he tried to make sure no one heard the killing by pinning Litwicki under his knee.
To be sure, he was in a rage when he killed her and still extremely angry when he made his
statement to Hart. But the killing was motivated by Gish’s outrage at how he had been wronged

34a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 17 of 19

by Litwicki’s infidelity, which he did not deserve because he was a nice, generous guy. Gish had
a keen sense that he had been wronged, and he thought the killing was justified: “And you
know what? I don’t regret it. I honestly don’t for some fucking oddball reason, dude, I couldn’t
take it.” Ex. 18, at 41. No one who hears Gish’s whole statement to Hart could conclude that,
at the time of the killing, Gish was unable to tell right from wrong.
Neither O’Donnell nor Gish himself explained how one could square an involuntary
intoxication defense with Gish’s statement to Hart. In fact, O’Donnell simply ignored the
statement in his testimony.
All of this shows that Gish wasn’t prejudiced by Opland-Dobs’s failure to investigate or
inform Gish about an involuntary intoxication defense. Had Opland-Dobs conducted an
investigation into the effects of Xanax, he would not have discovered evidence adequate to
support the defense. Rather, he would have discovered that the defense had no chance of
success, which he would have communicated to Gish. And the problem is not simply that the
jury would not have found the defense persuasive. It is that the jury likely would not even be
instructed on the offense. A defendant is not entitled under Wisconsin law to raise any defense
he chooses. Rather, he must first convince the trial court that he has some credible evidence of
the defense. Based on the evidence presented here, a trial court would almost certainly conclude
that Gish could not meet that standard for involuntary intoxication. And Gish would be in an
even more precarious situation at that point: headed to trial without any defense and no plea
deal on the table. Armed with the knowledge of how the defense would play out, it would not
be rational for Gish to reject the plea deal that the state offered.
Gish’s situation is close to that considered in Evans, in which the court concluded that
the defendant could not show prejudice because “no lawyer in his right mind would have

35a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 18 of 19

advised [defendant] to go to trial with a defense of intoxication.” 742 F.2d at 374. Evans
involved voluntary intoxication, but the basic principle applies here: the defense of involuntary
intoxication was merely a theoretical possibility, not a viable defense for Gish.
I conclude that Gish has not shown prejudice from Opland-Dobs’ deficient
performance.
D. Certificate of appealability
Under Rule 11 of the Rules Governing Section 2254 Cases, the court must issue or
deny a certificate of appealability when entering a final order adverse to a petitioner. To obtain
a certificate of appealability, the applicant must make a “substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2); Tennard v. Dretke, 542 U.S. 274, 282 (2004).
This means that “reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336
(2003) (internal quotations and citations omitted). I cannot say in this case that Gish has not
made a substantial showing of a denial of a constitutional right. Other judges might disagree
with the conclusion that petitioner is not entitled to withdraw his plea.

Accordingly, a

certificate will issue.

ORDER
IT IS ORDERED that:
1. Christopher Randolph Gish’s motions in limine, Dkt. 30 and Dkt. 31, are DENIED.
2. Gish’s petition for a writ of habeas corpus under 28 U.S.C. § 2254 is DENIED.

36a

Case: 3:15-cv-00730-jdp Document #: 53 Filed: 02/19/19 Page 19 of 19

3. A certificate of appealability shall issue.
4. The clerk of court is directed to enter judgment and close this case.
Entered February 19, 2019.
BY THE COURT:
/s/
________________________________________
JAMES D. PETERSON
District Judge

37a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 1 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN

CHRISTOPHER RANDOLPH GISH,
Petitioner,

OPINION & ORDER

v.

15-cv-730-jdp

MICHAEL DITTMANN,
Respondent.

Pro se petitioner Christopher Randolph Gish is currently in the custody of the
Wisconsin Department of Corrections at the Columbia Correctional Institution, following his
plea of guilty and conviction of first-degree reckless homicide in Milwaukee County Case
No. 12-CF-3564. Gish admits that he killed his girlfriend. But he seeks a writ of habeas corpus
under 28 U.S.C. § 2254, arguing that the Wisconsin Court of Appeals unreasonably rejected
his claim that his trial counsel was ineffective because counsel failed to investigate and inform
Gish of a potential defense of involuntary intoxication. If Gish had known about that defense,
he says, he wouldn’t have accepted the state’s plea deal.
Gish’s petition is now fully briefed and ready for a decision. After considering the
parties’ submissions, I conclude that the Wisconsin Court of Appeals unreasonably applied
federal law regarding ineffective assistance of counsel. I will hold an evidentiary hearing to
determine whether Gish is entitled to habeas relief, and I will appoint counsel to represent him
at the hearing.

38a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 2 of 18

BACKGROUND
I draw the following facts from the petition, briefs, and state court records.
In the early morning of July 14, 2012, police found Christopher Gish wandering near
General Mitchell Airport in Milwaukee, Wisconsin, after he had crashed his girlfriend’s
minivan. Soon after, police found Gish’s girlfriend, Margaret Litwicki, dead in Gish and
Litwicki’s bedroom. She had been stabbed several times in the head, neck, and chest. Upon
questioning, Gish admitted to stabbing Litwicki, explaining that he became upset when she
told him she was having an affair and threatened to leave him and take their children with her.
Gish was charged with first-degree intentional homicide in Milwaukee County Case No.
12-CF-3564. He was appointed a lawyer, Nathan Opland-Dobs, to represent him. On
November 19, 2012, Gish pleaded guilty to a reduced charge of first-degree reckless homicide.
The circuit court sentenced Gish to 40 years’ confinement and 20 years’ extended supervision.
Gish did not file a postconviction relief motion.
On direct appeal, Gish’s appointed counsel, Michael Backes, filed a no-merit report
under Wis. Stat. § (Rule) 809.32, which Gish contested. Gish contended that Opland-Dobs
was ineffective for failing to investigate and inform Gish of a potential involuntary intoxication
defense under Wis. Stat. § 939.42(1). He pointed to police reports that Gish was found
“wandering on the train tracks[,] soaking wet[,] unsteady on his feet[, and] unable to answer
any questions” shortly after the murder, leading the first responders to take him to the hospital,
where he continued to appear “disoriented.” Dkt. 12-5, at 29, 34. The reports indicate that
when Gish began responding to the paramedics’ questions, he said things like “All I saw was
red,” “I blacked out,” and “She’s upstairs.” Id. at 29. When asked where he was, Gish
responded, “It’s midnight. You are in my bedroom, why are you in my room?” Id. at 35. And

2

39a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 3 of 18

records of the interrogation indicated that Gish said “he must have blacked out” because he
didn’t remember how he got to the hospital after going to sleep the previous night. Id. at 40.
But Gish did remember taking Lamictal hours before the murder and Xanax a day or two before
that. Id. at 38. Once the interrogator told Gish what happened, he began to remember the
events of the previous night. He explained: “[I] lost my mind and I felt at the time it was the
right thing to do.” Id. at 44.
Had Opland-Dobs investigated Gish’s symptoms, Gish argued, he would have
discovered that five days before the murder, a doctor had prescribed Gish Xanax and Lamictal
and instructed him to take Xanax at a dose two to four times the recommended amount for a
first-time user. Gish provided pharmacy records that confirm these prescriptions. See id. at 81.
Gish points to several medical reference sources indicating that side effects of Xanax include
fear, confusion, hallucination, rage, disinhibition, hostility, and mania. See id. at 53–70. Had
Opland-Dobs told him that he could mount an involuntary intoxication defense, Gish argued,
he wouldn’t have accepted the plea deal that he did.
The Wisconsin Court of Appeals acknowledged that “[t]he effects of prescription drugs
may form the basis for an involuntary intoxication defense where they are taken according to
prescription.” Dkt. 12-7, at 6. But, it explained, the documents submitted by Gish in support
of his argument (the pharmacy records and police reports) were outside the appeal record and
therefore “not properly before” the court. Id. at 7. It went on, “In any event, we are not
convinced that this issue has arguable merit.” Id. It cited Backes’s no-merit report concerning
“the conclusory nature of the claimed effects of Xanax on Gish,” id., and reprinted one long
passage from the no-merit report, which included the following argument: “Mr. Gish had no
problem recalling the series of events leading up to his [‘]blind rage[’] and the brutal stabbing

3

40a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 4 of 18

death of the victim. Mr. Gish never claimed to have been in a drug induced stupor at anytime . . . . Mr.
Gish . . . has never named a witness which would support his claim as to an intoxicated state of mind. No
witness as to his taking Xanax, how much or at what time. No witness to any irrational conduct related to
his past consumption of any such drug.” Id. at 7–8 (first alteration in original). The court concluded,
“According to Gish’s appellate counsel, a claim that Gish’s trial counsel was ineffective for not
investigating is without merit ‘in that there wasn’t anything to investigate.’ Based on the record
before us, we agree.” Id. at 8.
The Wisconsin Supreme Court denied Gish’s petition for review. Gish now seeks federal
habeas corpus relief under 28 U.S.C. § 2254.

ANALYSIS
Gish contends that he is entitled to habeas relief because the Wisconsin Court of
Appeals unreasonably applied Supreme Court precedent concerning ineffective assistance of
counsel when it concluded that his ineffective assistance claim was without any arguable merit.
Section 2254(d) allows courts to grant state prisoners’ petitions for habeas corpus when the
state court’s adjudication of the merits of a claim for relief “resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established Federal law.” But
before reviewing Gish’s claim under § 2254(d), I must address any potential procedural grounds
barring review.
A. Procedural bars
I’ll begin the discussion of potential procedural bars with an explanation of the
procedural posture presented in this case. Criminal defendants in Wisconsin have “a statutory
right to seek postconviction relief through a postconviction motion or an appeal.” State ex rel.

4

41a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 5 of 18

Kyles v. Pollard, 2014 WI 38, ¶ 21, 354 Wis. 2d 626, 847 N.W.2d 805. Postconviction motions
are “filed in the trial court in which the conviction was adjudicated” and concern claims such
as ineffective assistance of counsel—claims that are based on matters outside the trial court
record. Page v. Frank, 343 F.3d 901, 905–06 (7th Cir. 2003). If the trial court denies the
postconviction motion, “the defendant may then appeal to the Court of Appeals of Wisconsin.”
Id. at 906. The subsequent appeal may encompass issues raised during trial as well as issues
raised in the postconviction motion. Id. Defendants are “entitled to counsel while seeking relief
through a postconviction motion . . . or a direct appeal.” Kyles, 2014 WI 38, ¶ 23. Appointed
postconviction counsel must “confer with the defendant regarding the defendant’s right to
appeal, the potential merit or lack thereof in pursuing either a postconviction motion or appeal,
and if applicable, the availability of the ‘no-merit option.’” State ex rel. Ford v. Holm, 2004 WI
App 22, ¶ 4, 269 Wis. 2d 810, 676 N.W.2d 500.
The “no-merit option” is available when “appointed counsel concludes that an appeal
or motion for postconviction relief ‘would be frivolous and without any arguable merit.’” Id.
¶ 5 (quoting Wis. Stat. § (Rule) 809.32(1)(a)). It is constitutionally required. See Anders v.
California, 386 U.S. 738 (1967). Wisconsin’s no-merit procedures are laid out in Wisconsin’s
Rule of Appellate Procedure 809.32. When appointed counsel determines that seeking
postconviction relief would be meritless, the defendant has three options: have the appointed
attorney file a no-merit report, close the case without an appeal, or withdraw so that the
defendant may proceed without an attorney or with another attorney retained at the
defendant’s expense. Rule 809.32(1)(b). If the defendant chooses the no-merit report motion,
appointed counsel must file a report that “identif[ies] anything in the record that might
arguably support the appeal and discuss the reasons why each identified issue lacks merit.”

5

42a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 6 of 18

Rule 809.32(1)(a). The defendant may file a response. Rule 809.32(1)(e). The appeals court
must then review the report and response. If it “determines that further appellate proceedings
would be frivolous and without any arguable merit, [it] shall affirm the judgment of
conviction.” Rule 809.32(3). But if the defendant and counsel “allege disputed facts regarding
matters outside the record, and if the court determines that the [defendant’s] version of the
facts, if true, would make resolution of the appeal under sub. (3) inappropriate, the court shall
remand the case to the circuit court for an evidentiary hearing and fact-finding on those
disputed facts before proceeding to a decision under sub. (3).” Rule 809.32(1)(g); see State v.
Aaron Allen, 2010 WI 89, ¶ 88 & n.9, 328 Wis. 2d 1, 786 N.W.2d 124 (“[T]he court of appeals
in a no-merit appeal should identify issues of arguable merit even if those issues were not
preserved in the circuit court . . . .”). This is the procedural posture that the Wisconsin Court
of Appeals encountered in Gish’s case: Gish’s appointed counsel filed a no-merit report
identifying any perceived issues of arguable merit; Gish filed a response, asserting that a claim
of ineffective assistance of counsel would be meritorious and including material from outside
the record; Gish’s counsel filed a supplemental no-merit brief addressing Gish’s arguments.
With this procedural posture in mind, I turn now to a discussion of the potential
procedural bars in this case. A claim for habeas relief is barred from federal review entirely
when “the last state court that rendered judgment ‘“clearly and expressly” states that its
judgment rests on a state procedural bar.’” Lee v. Foster, 750 F.3d 687, 693 (7th Cir. 2014)
(quoting Harris v. Reed, 489 U.S. 255, 263 (1989)). “[U]nless a state opinion contains a ‘plain
statement’ that it relied upon an independent and adequate state law ground, a presumption
arises that the federal claim was reached.” Willis v. Aiken, 8 F.3d 556, 561 (7th Cir. 1993)
(quoting Michigan v. Long, 463 U.S. 1032, 1042 (1983)); accord Richardson v. Lemke, 745 F.3d

6

43a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 7 of 18

258, 269 (7th Cir. 2014). To bar federal habeas review, the state procedural ground must be
“independent of the federal question and adequate to support the judgment.” Lee, 750 F.3d at
693 (quoting Coleman v. Thompson, 501 U.S. 722, 729 (1991)). “An independent state ground
will be found ‘when the court actually relied on the procedural bar as an independent basis for
its disposition of the case.’ A state law ground is adequate ‘when it is a firmly established and
regularly followed state practice at the time it is applied.’” Id. (quoting Thompkins v. Pfister, 698
F.3d 976, 986 (7th Cir. 2012)). “A basis of decision applied infrequently, unexpectedly, or
freakishly may be inadequate, for the lack of notice and consistency may show that the state is
discriminating against the federal rights asserted.” Page, 343 F.3d at 909 (quoting Prihoda v.
McCaughtry, 910 F.2d 1379, 1383 (7th Cir. 1990)).
Respondent argues that the appeals court relied on State v. John Allen, 2004 WI 106,
272 Wis. 2d 568, 682 N.W.2d 433, as an independent and adequate state procedural ground
for rejecting Gish’s ineffective assistance claim. John Allen held that a state trial court must hold
an evidentiary hearing on a defendant’s postconviction relief motion if “the motion on its face
alleges sufficient material facts that, if true, would entitle the defendant to relief,” but that a
court has discretion to deny a hearing “if the motion does not raise facts sufficient to entitle
the movant to relief, or presents only conclusory allegations, or if the record conclusively
demonstrates that the defendant is not entitled to relief.” 2004 WI 106, ¶ 9. The appeals court
did not cite John Allen at all in its opinion, nor did it refer to an evidentiary hearing. And John
Allen concerned a postconviction relief motion filed in the trial court, whereas Gish’s case
concerns a no-merit report originally filed before the appeals court, so it appears that John Allen
would be inapplicable. The only arguable link to John Allen is the appeals court’s use of the
word “conclusory” to describe the “claimed effects of Xanax on Gish,” Dkt. 12-7, at 7, but that

7

44a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 8 of 18

is far from a plain statement that the court actually relied on John Allen as an independent basis
for its disposition of the case. So John Allen does not procedurally bar Gish’s federal habeas
claims.
But there is another procedural bar at work in the appeals court’s decision. Although
procedural default is an affirmative defense that can be waived, and respondent only raised
John Allen as a procedural bar, I have discretion to inquire into other potential procedural bars
sua sponte. See Perruquet v. Briley, 390 F.3d 505, 517–18 (7th Cir. 2004). In Gish’s case, the
appeals court explained that the police reports, pharmacy records, and information concerning
the side effects of Xanax that Gish presented in support of his response to the no-merit report
were “outside the record” and “not properly before” the court. Dkt. 12-7, at 7. It cited State v.
Aderhold for the proposition that “reviewing courts are limited to the record, and are bound by
the record.” 91 Wis. 2d 306, 284 N.W.2d 108, 112 (Ct. App. 1979). Then, it concluded that
“[b]ased on the record before” it, Gish’s ineffective assistance claim was “without merit.” Dkt.
12-7, at 8. Aderhold is an independent state procedural ground for the appeals court’s resolution
of Gish’s claims, but it does not bar federal habeas review because it is not adequate to support
the appeals court’s judgment. Application of Aderhold to a response to a no-merit report is both
unexpected and infrequent, as described in Page.
Aderhold is non-objectionable in general: in the typical appeal, the appeals court cannot
consider matters outside the record. But the no-merit procedure is not the typical appeal, and
in that context, Aderhold runs contrary to Anders and Rule 809.32(1)(g), which instructs the
appeals court to “identify issues of arguable merit even if those issues were not preserved in the
circuit court.”1 Aaron Allen, 2010 WI 89, ¶ 88 & n.9. In Aaron Allen, the Wisconsin Supreme

1

The appeals court never cited Anders or Rule 809.32, other than a passing citation when

8

45a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 9 of 18

Court addressed the Seventh Circuit’s statement in Page that “[i]t is clear that Wisconsin law
would not have permitted” a criminal defendant to assert an ineffective assistance of counsel
claim in response to a no-merit brief “without its having been raised initially before the trial
court,” implying a reliance on Aderhold. 343 F.3d at 908. Aaron Allen explained that Wisconsin
law does permit a criminal defendant to assert an ineffective assistance claim in response to a
no-merit report because “the broad scope of review mandated by Anders suggests that the court
of appeals in a no-merit appeal should identify issues of arguable merit even if those issues were
not preserved in the circuit court, especially where the ineffective assistance of postconviction
counsel was the reason those issues were not preserved for appeal.” 2010 WI 89, ¶ 88. Aaron
Allen implicitly rejects Aderhold and embraces Rule 809.32(1)(g) in the no-merit context.
Post-Aaron Allen, the appeals court regularly applies Rule 809.32(1)(g), not Aderhold,
when reviewing no-merit reports. It recently explained, “We normally decline to address an
ineffective assistance of trial counsel claim if the claim was not raised in a postconviction
motion in the circuit court [i.e., if the basis for the claim is not in the record]. However, because
appointed counsel asks to be discharged from the duty of representation, we must determine
whether such a claim would have sufficient merit to require appointed counsel to file a
postconviction motion and request a Machner hearing.” State v. Serra, No. 14-AP-1717, 2016
WL 8605328, at *3 (Wis. Ct. App. May 18, 2016). For example, in State v. Vaughn, Vaughn
challenged his appellate counsel’s no-merit report, arguing that his trial counsel was ineffective
because counsel failed to inform him of a potential affirmative defense and that had he known

explaining what a no-merit report is. See Dkt. 12-7, at 1 (“Appellate counsel, Michael J. Backes,
filed a no-merit report pursuant to Wis. Stat. Rule 809.32 and Anders v. California, 386 U.S.
738 (1967).”).

9

46a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 10 of 18

about the defense, he would not have pleaded but would have insisted on going to trial. No.
14-AP-2652, 2015 WL 13135134, at *1 (Wis. Ct. App. June 17, 2015). The appeals court
explained that Vaughn had “asserted a fact outside of the record, the veracity of which this
court cannot make any judgment, and therefore we must assume is true,” citing Rule 809.32.
Id. at *2. It continued, “Because appointed counsel’s no-merit report seeks counsel’s discharge
from the duty of representation, we must independently determine whether the defendant’s
ineffective assistance claim has sufficient merit to require appointed counsel to file a
postconviction motion and request a Machner hearing.” Id. (footnote omitted). Because the nomerit report failed “to demonstrate why Vaughn would not be entitled to further
postconviction proceedings on his claim,” the appeals court rejected the no-merit report and
set a new deadline for appellate counsel to file a postconviction motion. Id. In light of the plain
language of Rule 809.32(1)(g) and the appeals court’s application of the rule in Vaughn, its
application of Aderhold when reviewing Gish’s response to a no-merit report was, to say the
least, unexpected. Because Aderhold was not an adequate ground for denial, it does not bar
federal habeas review.
B. Section 2254(d) review
The Antiterrorism and Effective Death Penalty Act (AEDPA), 28 U.S.C. § 2254, allows
federal courts to grant habeas relief only when the state court’s denial of relief “was contrary
to, or involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States” or “was based on an unreasonable determination
of the facts in light of the evidence presented.” § 2254(d). An “unreasonable application . . .
must be ‘objectively unreasonable,’ not merely wrong; even ‘clear error’ will not suffice.” White
v. Woodall, 134 S. Ct. 1697, 1702 (2014) (quoting Kockyer v. Andrade, 538 U.S. 63, 7576

10

47a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 11 of 18

(2003)). “A state court’s determination that a claim lacks merit precludes federal habeas relief
so long as ‘fairminded jurists could disagree’ on the correctness of the state court’s decision.”
Harrington v. Richter, 562 U.S. 86, 101 (2011) (quoting Yarborough v. Alvarado, 541 U.S. 652,
664 (2004)).
Here, the Wisconsin Court of Appeals correctly identified the controlling two-part test
for reviewing the ineffective assistance of counsel claims. Dkt. 12-7, at 6. First, Gish needed to
show deficient performance, meaning that “counsel made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Strickland v.
Washington, 466 U.S. 668, 687 (1984). Second, Gish had to demonstrate that the deficient
performance caused him prejudice, which requires showing that “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different.” Id. at 694. In the context of a guilty plea, this means showing that there
is a reasonable probability that, but for counsel’s deficient performance, he would not have
pleaded guilty but would have insisted on going to trial. Lafler v. Cooper, 566 U.S. 156, 163
(2012); Moore v. Bryant, 348 F.3d 238, 241 (7th Cir. 2003). “A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694.
“The chances of prejudice need be only better than negligible.” Julian v. Bartley, 495 F.3d 487,
498 (7th Cir. 2007). The likelihood of success at trial is relevant to the prejudice inquiry. See
Hill v. Lockhart, 474 U.S. 52, 59 (1985). But a petitioner’s “claim that he would have insisted
on going to trial . . . is enough.” Pidgeon v. Smith, 785 F.3d 1165, 1173 (7th Cir. 2015) (quoting
Ward v. Jenkins, 613 F.3d 692, 700 (7th Cir. 2010)).
Because the appeals court correctly identified the Strickland standard, “[t]he pivotal
question is whether the state court’s application of the Strickland standard was unreasonable.”

11

48a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 12 of 18

Harrington v. Richter, 562 U.S. 86, 101 (2011). I am not in a position to evaluate the merits of
Gish’s ineffective assistance claim because the facts relevant to his claim have never been
developed. See Ward, 613 F.3d at 698. “Given this posture, [my] inquiry is limited to whether
[Gish] is entitled to an evidentiary hearing to try and develop facts that would support his
petition.” Id. (granting evidentiary hearing when the state trial and appellate courts denied the
petitioner’s motion for an evidentiary hearing on his ineffective assistance of counsel claim).
Gish is entitled to a hearing only if (1) “he has alleged facts which, if proved, would entitle him
to habeas relief” and (2) the failure to develop the factual basis for his claim was beyond his
control. Id. (citing § 2254(e)(2), Williams v. Taylor, 529 U.S. 420, 432 (2000), and Davis v.
Lambert, 388 F.3d 1052, 1059–60 (7th Cir. 2004)). In this case, these questions are one and
the same: if Gish has alleged facts that, taken as true, would satisfy Strickland, then the
Wisconsin Court of Appeals erred in not remanding his case to the trial court for an evidentiary
hearing under Rule 809.32(1)(g) and the failure to develop the facts in an evidentiary hearing
was not Gish’s fault. So an analysis of Gish’s petition boils down to one question: taking Gish’s
allegations as true, does he state an ineffective assistance of counsel claim?
Gish’s ineffective assistance claim focuses on the statutory defense of involuntary
intoxication, so I begin by examining that defense. At the time of Gish’s arrest and conviction,
Wis. Stat. § 939.42(1) read:
An intoxicated or a drugged condition of the actor is a defense
only if such condition . . . [i]s involuntarily produced and renders
the actor incapable of distinguishing between right and wrong in
regard to the alleged criminal act at the time the act is committed
....
The involuntary intoxication defense focuses not on the defendant’s intent, but rather on
whether the defendant was “incapable of distinguishing between right and wrong.” State v.

12

49a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 13 of 18

Anderson, 2014 WI 93, ¶ 23, 357 Wis. 2d 337, 851 N.W.2d 760; State v. Gardner, 230 Wis. 2d
32, 601 N.W.2d 670, 673 (Ct. App. 1999). It “is available . . . to a defendant who takes his
prescription medication as ordered.” Anderson, 2014 WI 93, ¶ 33 n.12 (citing Gardner, 601
N.W.2d at 674).
The defense is triggered when the defendant “produce[s] some evidence that his
intoxication had affected his ability to distinguish right from wrong.” Gardner, 601 N.W.2d at
676 (emphasis added). “This evidence must be more than a mere statement that the defendant
was intoxicated,” and it “must be credible.” Id. (quoting State v. Strege, 116 Wis. 2d 477, 343
N.W.2d 100, 105 (1984)). “The defendant must present evidence both that the intoxication
was involuntarily and that it rendered him or her incapable of distinguishing right from wrong
at the time the criminal act occurred.” State v. Alby, 2001 WI App 146, ¶ 8, 246 Wis. 2d 761,
630 N.W.2d 276. For example, a Wisconsin trial court instructed the jury on the defense when
the defendant shot and killed his wife several months after being prescribed an antidepressant
that was not appropriate for his mental health condition, and known side effects of the
antidepressant included “psychotic behaviors, mood swings or violence.” Laguna v. Schwochert,
No. 10-cv-609, 2014 WL 2612069, at *1 (E.D. Wis. June 11, 2014). But the appeals court
has held that the defense is unavailable if the defendant “testified that she was not impaired at
the time” of the offense, had a “clear recollection of the offense,” and presented no evidence
“that she was so intoxicated as to be unable to distinguish right from wrong,” State v. Deppiesse,
2014 WI App 71, ¶ 13, 354 Wis. 2d 622, 848 N.W.2d 903; if the intoxication merely “‘caused
[the defendant] to lack judgment’ and lowered his inhibitions,” State v. Eggenberger, 2013 WI
App 128, ¶ 14, 351 Wis. 2d 224, 838 N.W.2d 866; or if there is no evidence that the defendant

13

50a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 14 of 18

actually experienced the side effects that the medicine theoretically could cause, see State v.
Alswager, 2011 WI App 75, ¶ 20, 334 Wis. 2d 145, 799 N.W.2d 928.
Once the defendant raises the defense, “the burden is on the state to prove the absence
of the defensive matter to support a conviction for the crime charged.” Wis. Criminal Jury
Instructions § 775A Comments n.3 (2015). If the state does not meet its burden, “the result
will be an acquittal on the charge.” Anderson, 2014 WI 93, ¶ 25 (quoting 9 Christine M.
Wiseman & Michael Tobin, Wisconsin Practice Series: Criminal Practice and Procedure § 17.25 (2d
ed.)).
I turn now to an analysis of Gish’s claim, keeping in mind that the ultimate question is
not whether Gish’s allegations, if true, would support an involuntary intoxication defense; the
question is not even whether there is a reasonable probability that the trial court would have
instructed the jury on the defense. Rather, the question is whether Gish’s counsel erred in
failing to investigate or inform him of the defense and whether there is a reasonable probability
that Gish would not have pleaded guilty if he had known about the defense—that probability
may exist even if the chances of succeeding on the defense would have been slim.
Here, the appeals court determined that Gish’s ineffective assistance argument was
without any arguable merit because “there wasn’t anything to investigate” concerning the
involuntary intoxication defense. Dkt. 12-7, at 8. This conclusion is puzzling in light of Gish’s
allegations. Police records available to Opland-Dobs indicate that Gish was taking prescription
psychoactive medicine around the time of the crime and was found hours after the crime in a
confused, delusional state. Gish told his interrogator that he blacked out, lost his mind, and
thought that stabbing Litwicki “was the right thing to do.” Dkt. 12-5, at 44. Upon reviewing
these records, competent counsel would have investigated further to determine whether Gish

14

51a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 15 of 18

could raise involuntary intoxication as an affirmative defense. Upon investigation, counsel
would have discovered that Gish was prescribed two to four times the recommended amount
of Xanax, that known side effects of Xanax include fear, confusional state, hallucination, rage,
disinhibition, hostility, and mania, and that “Xanax and Lamictal have been known to produce
aggressive, and assaultive behavior, as well as temporary memory loss, and hostile behavior.”
Dkt. 14, at 18. Armed with “some evidence” that Gish took prescription medicine, that he was
unable to distinguish right from wrong during the crime, and that there was a causal link
between the two, competent counsel likely could have obtained a jury instruction on
involuntary intoxication. At that point, the affirmative defense would have succeeded at trial
unless the state proved beyond a reasonable doubt that Gish was not rendered unable to
distinguish right from wrong by his medicine. Gish says that had he known about the
affirmative defense, he would not have accepted the state’s plea deal. Gish’s allegations, which
I must accept as true at this point in the proceedings, satisfy Strickland. Gish’s claim is far from
frivolous. The appeals court’s conclusion that Gish’s trial counsel was not arguably ineffective
is objectively unreasonable.
Respondent argues that the defense would not have succeeded because Gish could
remember events that took place before the crime; Gish could not name a witness who could
testify about the effect of the medicine on Gish; and later on, Gish showed remorse for his
crime. The state certainly could have raised these points at trial, but the ultimate issue is not
whether the defense would have succeeded at trial, but whether, if Gish’s counsel had
investigated the affirmative defense and told Gish about it, it is reasonably probable that Gish
would have refused to plead and insisted on going to trial. Taking all of Gish’s allegations as

15

52a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 16 of 18

true, the answer is yes. So § 2254(d) does not bar habeas relief, and I will conduct an
evidentiary hearing on Gish’s ineffective assistance claim.
C. Appointment of counsel
Under Rule 8(c) of the Rules Governing § 2254 Cases, I must appoint counsel to
represent a petitioner at an evidentiary hearing if the petitioner qualifies to have counsel
appointed under the Criminal Justice Act, 18 U.S.C. § 3006A. Section 3006A(a)(2) requires
me to determine that the appointment of counsel would serve “the interests of justice” and
that the petitioner is “financially eligible.” Two additional considerations are relevant to the
interest of justice prong: whether the petitioner has attempted to obtain representation on his
own, Jackson v. County of McLean, 953 F.2d 1070, 1073 (7th Cir. 1992), and whether the
difficulty of the case exceeds the petitioner’s ability to litigate his claims himself, Pruitt v. Mote,
503 F.3d 647, 655 (7th Cir. 2007). To determine a petitioner’s competence to litigate his own
case, the court considers his literacy, communication skills, education level, and litigation
experience. Id.
To be financially eligible for appointment of counsel, Gish does not have to be indigent;
he must demonstrate only that he is financially unable to obtain counsel. United States v.
Sarsoun, 834 F.2d 1358, 1362 (7th Cir. 1987) (“The Criminal Justice Act . . . merely requires
that a defendant be financially unable to obtain counsel—a lower standard than indigency.”).
Although Gish bears the ultimate burden of demonstrating his financial eligibility, “[a]ny
doubts as to a person’s eligibility should be resolved in the person’s favor; erroneous
determinations of eligibility may be corrected at a later time.” Admin. Office of the U.S. Courts,
Guide to Judiciary Policies and Procedures, Vol. 7, pt. A, § 210.40.30(b).2 Gish qualified for a

2

Available at http://www.uscourts.gov/rules-policies/judiciary-policies/cja-guidelines/chapter-2-

16

53a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 17 of 18

public defender during his state-court proceedings. He is now in prison, where his financial
situation presumably has not improved. Applying the principles discussed above, I conclude
that Gish is financially unable to obtain counsel.
I am also persuaded that appointing Gish counsel would serve the interests of justice.
Gish’s claim concerns complex medical issues, such as the effects of psychoactive medicines.
He would have been entitled to counsel had a hearing on his ineffective assistance claim been
conducted during state-court postconviction proceedings. So I will appoint counsel to represent
him. Gish should be aware that if the court later finds that he is financially able to retain
counsel, it may terminate the appointment of counsel as the interests of justice dictate, and
also may direct him to reimburse his attorney for the cost of representation. § 3006A(c), (f).
Once counsel is appointed, the court will hold a status conference to open discovery
and set a schedule for the completion of discovery, expert disclosures, and the evidentiary
hearing.

ss-210-representation-under-cja.

17

54a

Case: 3:15-cv-00730-jdp Document #: 22 Filed: 12/14/17 Page 18 of 18

ORDER
IT IS ORDERED that the proceedings are STAYED pending appointment of counsel
for petitioner Christopher Randolph Gish. Once counsel is appointed, a status conference will
be held to establish a new schedule for resolution of the case.
Entered December 14, 2017.
BY THE COURT:
/s/
________________________________________
JAMES D. PETERSON
District Judge

18

55a

